<html>
<title> - THE TRUMP-KIM SUMMIT: OUTCOMES AND OVERSIGHT</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                         THE TRUMP-KIM SUMMIT: 
                         OUTCOMES AND OVERSIGHT

=======================================================================


                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 20, 2018

                               __________

                           Serial No. 115-139

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                      or http://www.gpo.gov/fdsys/

                                                       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-497PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c1a6b1ae81a2b4b2b5a9a4adb1efa2aeacef">[email&#160;protected]</a>                     
                      
                      
                   
                      
                      
                      
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                  Subcommittee on Asia and the Pacific

                     TED S. YOHO, Florida, Chairman
DANA ROHRABACHER, California         BRAD SHERMAN, California
STEVE CHABOT, Ohio                   AMI BERA, California
TOM MARINO, Pennsylvania             DINA TITUS, Nevada
MO BROOKS, Alabama                   GERALD E. CONNOLLY, Virginia
SCOTT PERRY, Pennsylvania            THEODORE E. DEUTCH, Florida
ADAM KINZINGER, Illinois             TULSI GABBARD, Hawaii
ANN WAGNER, Missouri
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Bruce Klingner, senior research fellow for Northeast Asia, 
  Asian Studies Center, The Heritage Foundation..................    10
Michael J. Green, Ph.D., senior vice President for Asia, Japan 
  Chair, Center for Strategic and International Studies..........    23
Mr. Abraham Denmark, director, Asia Program, The Woodrow Wilson 
  International Center for Scholars..............................    29

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Ted S. Yoho, a Representative in Congress from the 
  State of Florida, and chairman, Subcommittee on Asia and the 
  Pacific: Prepared statement....................................     3
Mr. Bruce Klingner: Prepared statement...........................    13
Michael J. Green, Ph.D.: Prepared statement......................    26
Mr. Abraham Denmark: Prepared statement..........................    32

                                APPENDIX

Hearing notice...................................................    62
Hearing minutes..................................................    63
The Honorable Brad Sherman, a Representative in Congress from the 
  State of California: Material submitted for the record.........    64

 
                         THE TRUMP-KIM SUMMIT: 
                         OUTCOMES AND OVERSIGHT

                              ----------                              


                        WEDNESDAY, JUNE 20, 2018

                       House of Representatives,

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:00 p.m., in 
room 2172 Rayburn House Office Building, Hon. Ted Yoho 
(chairman of the subcommittee) presiding.
    Mr. Yoho. Good afternoon.
    The hearing will come to order. I'd like to thank everybody 
for being here today.
    For years, this committee has held--has led the effort in 
constraining the threat of North Korea's nuclear belligerence. 
Congress has worked under successive administrations to 
pressure the Kim regime, and in conjunction with the 
administration in multilateral efforts, this has occasionally 
brought us to inflection points--opportunities to change the 
course of this stubborn conflict.
    The United States has reached another of these crossroads. 
Just over 1 week ago, President Trump met with Kim Jong-un, the 
current scion of the dictatorial Kim dynasty.
    The word ``historic'' has been endlessly used to describe 
the meeting and that much is true. The two countries have never 
conducted direct leader-level talks before, and regardless of 
how these talks resolve, we can all be grateful that we are 
further from conflict than we were at the end of last year, and 
I would guess, 2 months ago.
    Just over 1 week ago, President Trump met with Kim Jong-un, 
as we talked about, but simply holding a summit is not an 
accomplishment by itself.
    The administration has taken an important first step. But 
much work needs to be done. The joint statement that emerged 
from Singapore contains few specifics about how these talks 
will advance our ultimate goal--the complete, verifiable, and 
irreversible denuclearization of North Korea. The statement, as 
our witnesses will testify, is generally similar to many 
statements North Korea has agreed to in the past, while making 
no good-faith efforts toward ever giving up its nuclear 
weapons.
    While North Korea agreed to nothing new, the United States 
took the unprecedented step to indefinitely suspend our joint 
military exercises with our ally, the Republic of Korea.
    There has been widespread disappointment regardless of 
party or affiliation that the United States would make these 
concessions when North Korea's only track record is for 
cheating and double dealing.
    Importantly, nothing would make China and Russia happier 
than for the United States to voluntarily scale back our 
strategic capabilities in northeast Asia.
    The White House has given some assurance that halting these 
exercises won't affect readiness, and it's encouraging that 
Secretary Mattis and the Pentagon are behind the idea.
    But Congress must ensure that our defensive options are not 
affected and that the exercises can resume at the first sign of 
trouble.
    We must be vigilant against threats from elsewhere in Asia. 
Our enemies will try to use the ongoing talks to advance their 
own goals, which may be at odds with our own. China is already 
pressing for the premature end of sanctions when North Korea 
has taken no concrete steps and has already eased trade 
restrictions along their shared border.
    The indefinite standoff between the United States and a 
nuclear North Korea is in China's strategic interest. We can't 
forget that Xi Jinping has broken his diplomatic standoff with 
Kim to maximize his influence in the ongoing talks.
    He certainly wouldn't mind wiping out the progress that we 
have made, turning back the clock a year or 2 and maintaining 
control over the perpetual threat to the United States that he 
can modulate through economic leverage.
    So today we start a new chapter in a long-running endeavor 
of this committee. Some aspects of Congress' role will stay the 
same.
    Ranking Member Sherman and I have worked together to press 
the administration to go after sanctions evaders large and 
small. It'll be more important to maintain our sanctions 
pressure as these talks go on.
    We have written the administration--there are no banks that 
are too big to sanction. Targeting these bad actors will only 
strengthen the administration's hand.
    But the Singapore summit has left us with many questions 
about how the negotiations will proceed in any denuclearization 
process that will emerge.
    Our objective today is to start formulating recommendations 
that we can make to the administration and identify priorities 
we must ensure are considered as these talks progress.
    We are thankful to be joined today by an expert panel who 
will advance their discussions and we look forward to hearing 
from you.
    [The prepared statement of Mr. Yoho follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

    Mr. Yoho. And with that, members present will be permitted 
to submit written statements to be included in the official 
hearing record.
    Without objection, the hearing record will remain open for 
5 calendar days to allow statements, questions, and extraneous 
material for the record, subject to length limitation in the 
rules, and the witnesses' written statements will be entered 
into the hearing.
    I now turn to the ranking member for any opening remarks he 
may have.
    Mr. Sherman. Thank you, Mr. Chairman. Thank you for holding 
these hearings and I appreciate that opening statement.
    The question the people are asking is whether this was a 
win-win or Kim win. I think it's clear that it is a Kim win, 
but this is just the first inning, and it is possible that as 
this goes forward it could be a win-win situation.
    Let us see what--and I've been considered a dove at the 
very edge of the pale of reasonableness by saying that these 
negotiations will be successful if we are able to monitor, 
freeze, and limit the nuclear program in North Korea and that 
we will not get CVID, at least not in my lifetime, and they 
tell me I am in good shape. I'll see.
    So that--whereas everyone else in the foreign policy 
administration has said the CVID, which means complete 
irreversible verifiable demilitarization.
    So although I've been considered a dove on that, this thing 
passes is way more dovish than I am. What did we give up? We 
gave up, first, a meeting with the President of the United 
States, in Asia, boosting the credibility of the regime.
    Most importantly, I think, we, in effect, gave up 
sanctions, at least ratcheting those sanctions. For example, 
Mr. Chairman, you and I sent this letter--and without 
objection, I'd like to put it in the record.
    Mr. Yoho. Without objection.
    Mr. Sherman. Urging the administration--and this is dated 
May 9th of this year--to impose tougher sanctions particularly 
on the larger Chinese banks that have been given a pass.
    This letter, to my knowledge had not been answered. But if 
Singapore is the answer, this letter is dead. We are not going 
to be sanctioning more. We are going to be sanctioning less.
    We are not going to be making it hard for Kim to breathe. 
We are going to be letting our foot off his neck. That is a 
huge win for Kim.
    And then, finally, and for reasons I do not understand, our 
President has branded the exercises--military exercises as 
provocative and as war games, and has suspended them, at least 
the big ones planned in August.
    We--if training isn't important to the military, then 
perhaps the Armed Services Committee has it wrong and we can 
save many tens of billions of dollars by not doing training and 
not doing exercises. That is absurd.
    While I am talking about exercises, what we need is 
exercises involving Japan, the United States, and South Korea, 
and we have to tell our allies to ``get over it.''
    The Japanese can't say that they can be the third largest 
economy and yet will never do anything to protect South Korea, 
and South Korea can't say there were terrible wrongs done over 
70 years ago and therefore they won't do exercises with Japan.
    These two countries increase the burden on Americans, the 
cost to Americans, and the possible death of Americans by 
refusing to exercise together, and that--and what we need is 
the three countries working with exercises together.
    What did we get out of this hearing or, rather, this 
summit? We did not get a freeze on the production of fissile 
material.
    At Yongbyon, both the plutonium reactor and the enrichment 
centrifuges are working today. North Korea has more fissile 
material today than when the President went to Singapore, and 
they will have a little bit more by the end of this hearing.
    There is an implicit freeze on testing. But you don't need 
to test nuclear weapons constantly once you have demonstrated 
that they work. North Korea has demonstrated that they work. 
Russia hasn't done a nuclear test since 1990. That doesn't make 
me sleep well, thinking that those weapons are unavailable for 
use should they, God forbid, be deployed.
    What we need is for North Korea to declare all of its 
nuclear missile facilities, we need to send inspectors, and we 
need a freeze, and if we don't get then all we have is vague 
promises and a statement about a denuclearized Korean Peninsula 
that apparently means to the North Koreans that will happen 
when swords are beaten into plowshares and wherein the entire 
world gives up its military forces.
    So I look forward to learning from our experts what we can 
do to turn this into a win-win, notwithstanding the outcome of 
the first inning.
    I yield back.
    Mr. Yoho. I thank the ranking member. Now we will turn to 
other members for opening statements.
    Mr. Rohrabacher of California.
    Mr. Rohrabacher. Thank you very much.
    Let me just say for the record that I am very pleased with 
our President and I think that when I look at what's going on 
now and especially in reference to what happened in Korea, 
forgive me if I say this, but it's sort of like Yogi Berra's 
``it's deja vu all over again.''
    Having spent time in the Reagan White House and watched the 
same unrelenting negativity that the Democrats were playing 
against Ronald Reagan, who now they won't admit that--seeing 
that he ended the Cold War--but at that time they did 
everything they could to cast aspersions and weaken America's 
position in dealing with a Soviet Government, which at that 
time was our primary enemy in the world.
    In fact, Ted Kennedy, when Reagan was up for reelection, 
even went to Russia--the Soviet Union--and met with Andropov, 
who was the worst of all of their leaders--during the Cold War 
and tried to find and to work with him, how can we prevent 
Ronald Reagan from being reelected.
    And this talk about collusion with Trump, which they have 
been unable to prove, and have been put up and treated Ted 
Kennedy, after that episode, as if he was some kind of a hero, 
is really disconcerting for those who know history and have 
been here for a while.
    But now we have a President that's trying to bring peace to 
Korea. My father fought in Korea. He fought in Korea before I 
was born. Actually, I was born in 1947. So he fought in Korea 
when I was 5 years old, all right. But I remember when I was 
coming back from a little stint in Vietnam when I was 19 and he 
told me how chaotic the situation was in Korea and how many 
people's lives were being lost.
    Years later, he told me he could not believe that after all 
those years we had not brought peace to Korea, with all of the 
loss of life of the Americans.
    Well, let me just put it this way. This President has made 
more progress toward bringing peace to the Korean Peninsula 
than any other President, any other American leader, in our own 
lifetime.
    We should be proud of him and we should--it should be 
unacceptable that this unrelenting hostility and negativity to 
the point that foreigners look at us and believe that the 
Democratic Party is trying to wish that our President didn't 
succeed in this peace effort. That's how loud and aggressive 
and unacceptable that criticism has been.
    We should be applauding our President now for what he's 
down with Kim because he's opened the door--doesn't mean he's 
succeeded--but he's opened the door, just like Reagan opened 
the door with the Soviet Union and many of the tactics he's 
used have been the same.
    So I appreciate that. Three cheers for our President and 
what he's done with Korea.
    Mr. Yoho. Appreciate your comments, and we pride ourselves 
on being bipartisan on this committee, and we are going to have 
bipartisan discussions, as you can hear today.
    We next go to Mr. Bera--Dr. Bera--from California.
    Mr. Bera. Thank you, Mr. Chairman.
    And I appreciate my colleagues. I wasn't in Congress when--
I think I was in high school when President Reagan was, you 
know, addressing the Cold War. In hindsight, you know what? I 
am happy that the Cold War ended and President Reagan deserves 
a lot of credit for that.
    I also know someone who's traveled to the Korean Peninsula 
three times in the last 10 months who had breakfast with the 
vice foreign minister yesterday from Korea.
    Look, I'll give kudos to President Trump for engaging in 
dialogue. You know, Madeleine Albright said you don't have to 
like the person sitting across the table from you but you have 
to be willing to start a conversation and a dialogue, and that 
conversation has started.
    The devil now is in the details and, you know, the Republic 
of Korea and the United States, there is no space between how 
we are viewing this dialogue.
    We are going to be very tough and, you know, I think the 
President and, hopefully, the administration will be as tough, 
walking hand in hand, with our Korean allies.
    The end goal here is denuclearization in a verifiable 
manner, and I am not ready to say I trust Kim Jong-un. I think 
we can look back on, you know, prior agreements and prior 
breaking of those agreements.
    But we shouldn't be afraid to engage in a dialogue and move 
forward, and we should do so with our eyes wide open. We 
should, you know, stick to that end goal of a verifiable 
denuclearized Korea.
    It may take time, as opposed to hastily rushing through 
things for an election cycle or political gain. Let's get this 
right, and it shouldn't be Democratic or Republican. This is 
about the United States of America and creating a more peaceful 
world.
    Mr. Yoho. Thank you for your comments.
    We will next go to Mr. Adam Kinzinger.
    Mr. Kinzinger. Thank you, Mr. Chairman. I'll keep it to a 
minute.
    Let me just say there is a DIME thing for getting things 
done--diplomatic, information, military, and economic.
    When you're working against an adversary, the economic and 
especially the military piece is super important to back up the 
diplomatic piece, and this is where we are at. We are at the 
diplomatic part right now.
    But the important part to see success on that is to 
continue to keep the economic pressure up and to continue to 
have viable and strong and aggressive military action if 
necessary. It is that military piece that will compel a 
diplomatic solution and it is that economic piece that will 
create enough pain to also compel a solution.
    So as we go down however long this process is, and we are 
going to continue to do oversight of it, it is important that 
we not let up on those things that force us to the table in the 
first place, to continue to march down to a successful 
conclusion and I wish--I know left and right, Democrats and 
Republicans, wish this President luck to get it done. We 
certainly hope so.
    And I yield back.
    Mr. Yoho. Thank you for your comments.
    Next, we will go to Mr. Gerry Connolly from Virginia.
    Mr. Connolly. Thank you, Mr. Chairman, and welcome to our 
panel.
    I just want to say all of us hope that talking directly to 
North Korea will have payoff, and that payoff, as set by the 
President, has to be absolute denuclearization absolutely 
verifiable.
    I believe that's a standard that will not be met. I believe 
that we have approached this in a naive way in which Kim Jong-
un has gotten all the benefits and we have gotten nothing.
    I hope that can be reversed. I hope we can ultimately get 
what it is we seek. But to be naive and to develop amnesia 
about the history of negotiations--denuclearization 
negotiations with North Korea is dangerous for the peninsula 
and puts everybody, North and South and the Sea of Japan, at 
risk.
    So the stakes are very high here and the expectations have 
been set by the President in ripping up the Iran nuclear 
agreement, which wasn't good enough, even though it was 
working.
    Well, we don't have anything working with respect to North 
Korea, other than a handshake and photo op. I hope to see and 
expect much more.
    I yield back.
    Mr. Yoho. Thank you.
    Next, we will go to Ann Wagner from Missouri.
    Mrs. Wagner. Thank you, Mr. Chairman. Pardon me.
    I appreciate this hearing on the Trump-Kim summit and I 
want to thank our witnesses for being here today.
    I was in the Korean Peninsula last August in kind of the 
height of North Korea's belligerence and I met with South 
Korean President Moon Jae-in, and we discussed our shared hope 
for a peaceful resolution to last summer's ballistic missile 
test.
    We have made tremendous progress since then, trading in 
threats for talks, and I believe there is real and genuine hope 
that we can move toward denuclearization.
    I understand full well the history of the 1994 agreed 
framework, the Six-Party Talks, and the Leap Day agreement. So, 
of course, the U.S. cannot grant concessions without tangible 
steps toward Denuclearization and threat reduction.
    But negotiations with the Kim regime are a serious 
opportunity to reduce the risk of war in the Asia Pacific and I 
look forward to tangible outcomes as the two parties continue 
negotiations.
    I yield back.
    Mr. Yoho. Thank you for your comments.
    And here we are. We are getting ready to have you guys. 
Welcome to the Trump-Kim summit outcomes and oversight and--
okay.
    And before we get into that, Mr. Chabot has a comment he 
wants to make.
    Mr. Chabot. I'll be very brief. I wasn't going to talk but 
then I think I better.
    For the last year and a half, many of the President's 
critics literally were warning that he was going to trigger 
World War III with respect to some of the aggressiveness toward 
North Korea.
    He substantially ratcheted up the sanctions against North 
Korea along with the United States Congress and it actually 
worked to a considerable degree. We are not there yet, but I 
think it's heading in the right direction.
    President Trump warned that, unlike previous U.S. 
administrations, both Democrat and Republican, North Korea 
would abandon its nuclear weapons.
    Again, we haven't seen it actually happen yet. But I hope 
and pray that we are on our way because I think we all do want 
to avoid war, if at all possible.
    So my advice to the President would be to keep the 
ratcheted-up sanctions in place. The nuclear weapons and his 
program has to go first before any of the sanctions are 
relieved. But we shouldn't trust this government in North Korea 
as far as we can throw them, as far as I am concerned.
    They think nothing of starving and torturing and killing 
their own people and throwing them into gulags and just 
essentially forgetting about them.
    So if you're going to do that to your own people, lying and 
cheating with an adversary--the United States and our allies, 
in this case--they won't think twice about that.
    So we need to be very wary. That being said, I give 
President Trump great credit for surprising a lot of people who 
thought he was going to take us into war and may actually end 
up in peace for the region and the world, and that's what we 
hope happens.
    I yield back.
    Mr. Yoho. And I appreciate those comments and, you know, 
like I said, this is the Trump-Kim summit--the outcome's 
oversight--and as we were talking about earlier, so many of the 
things that you guys tell us goes into written form, whether 
it's resolutions or President--or letters to the President or 
to Treasury or to the State Department, and so I look forward 
to having your input, because we know what hasn't worked in the 
past.
    And so I think it's time for outside of the box and this is 
pretty much outside of the box thinking and techniques, and, 
you know, people aren't familiar with that or used to that or 
comfortable with that.
    We know, like I said, in the past what didn't work and we 
had career diplomats negotiating and negotiating, and here we 
are with the threat of a nuclear war on that peninsula further 
than we have ever been.
    So we are thankful today to be joined by Mr. Bruce 
Klingner, who has been in front of this committee often, who is 
the senior research fellow for Northeast Asia at the Heritage 
Foundation Asia Studies Center.
    Prior to working at the Heritage Foundation, Mr. Klingner 
served 20 years in the CIA in the Defense Intelligence Agency. 
Thank you for being here.
    Dr. Mark Green, who is the senior vice president and Japan 
chair at the Center for Strategic and International Studies and 
director of Asian studies at the Edmund Walsh School of Foreign 
Service at Georgetown University.
    Previously, he has also served on the staff of the National 
Security Council. Thank you for being here.
    And Mr. Abraham Denmark, who is the director of the Asia 
program at the Woodrow Wilson International Center for 
Scholars. Prior to joining the Wilson Center, Mr. Denmark 
served as Deputy Assistant Secretary of Defense for East Asia 
and has held several positions in the U.S. intelligence 
community, and more importantly, another person here is Ms. 
Denmark, your mother, who's going to be watching you.
    So we are expecting big things out of you. Thank you, 
ma'am, for being here.
    And with that, you guys have been here enough. You know how 
the timer works. You know how the lights work. Press your 
button so we can hear you, and Mr. Klingner, go ahead. Thank 
you.

  STATEMENT OF MR. BRUCE KLINGNER, SENIOR RESEARCH FELLOW FOR 
 NORTHEAST ASIA, ASIAN STUDIES CENTER, THE HERITAGE FOUNDATION

    Mr. Klingner. Thank you, Mr. Chairman, Ranking Member 
Sherman, and distinguished members of the panel.
    It's truly an honor to be asked to appear before you again 
on such an important issue of national security. The U.S.-North 
Korea Summit was historic, and the first step of what would be 
a long process to cut the Gordian Knot of regime security 
threats to the United States and its allies.
    Hopefully, this time is different. But it is a well-trod 
path that has previously led to disappointment. The summit was 
heavy on pomp and circumstance but light on substance. There 
was nothing new in the Singapore Communique, as you pointed 
out.
    Each of the four major components was in previous accords 
with North Korea and were stronger or more encompassing in the 
previous iterations.
    Most notably, the North Korean pledge to work toward 
complete denuclearization of the Korean Peninsula is weaker 
than the September 2005 Six-Party Talks joint statement.
    And despite pre-summit statements by the administration 
that North Korea was moving toward accepting the U.N.-required 
concept of CVID, there was no evidence of that in the 
Communique.
    The joint statement did not include any reference to 
missiles, BCW, verification, or human rights--all topics that 
the administration stated would be discussed during the summit.
    Also of concern was President Trump's unilateral decision, 
without consulting our allies, to cancel what was deemed the 
``provocative'' U.S.-South Korea ``war games,'' terms that 
Washington had always rejected when North Korea used them.
    This was a major unilateral concession to Pyongyang for 
which the U.S. received nothing in return. North Korea did not 
codify its nuclear and missile test moratorium in the Singapore 
Communique nor did Pyongyang reciprocate with a freeze of its 
own large scale annual winter and summer training cycles.
    For years, the U.S. had correctly rejected North Korea's 
freeze for freeze proposal in which North Korea would suspend 
its prohibited nuclear missile tests in return for Washington 
and Seoul suspending the allied conventional military 
exercises.
    As I wrote in 2015, canceling the combined exercises would 
degrade U.S. and South Korean deterrence and defense 
capabilities, necessitated by North Korea's previous attacks 
and threats.
    Last week, my Heritage Foundation colleague, retired U.S. 
Army Lieutenant General Thomas Spoehr concluded that 
``canceling military exercises before North Korea has taken any 
concrete steps to demonstrate its intentions would be 
troubling. These exercises are necessary to ensure the 
interoperability and integration of operations and ensure 
readiness and preparedness.''
    General Spoehr assessed that ``suspending these large joint 
exercises for an extended period of time, particularly for more 
than 6 months, could erode the readiness of U.S. and South 
Korean forces to successfully work together to defend South 
Korea. If the pledge by the President encompasses lower level 
exercises, the negative impact on readiness will be more 
immediate and severe.''
    Now, as we move forward, U.S. diplomats will now work to 
add meat to the bones of the Singapore Communique, and I'll 
summarize a few of the recommendations in my written testimony.
    CVID--North Korea should unequivocally and publicly accept 
the U.N.-required abandonment of the regime's nuclear missile, 
and BCW programs in a complete, verifiable, and irreversible 
manner.
    Require detailed, carefully-crafted text. Past negotiations 
with North Korea were flawed because the final agreement was 
short, vague, and didn't clearly delineate the definitions and 
responsibilities, as was the case with arms controls treaties 
with the Soviet Union and Warsaw Pact.
    And the two sides differ over seemingly straightforward 
phrases such as ``denuclearization'' and the ``Korean 
Peninsula.''
    We need to get it in writing. There has been a long history 
of American negotiators believing North Korea agreed to 
something based on our perception of a discussion or a verbal 
assurance by the regime. Oral agreements with North Korea are 
not worth the paper they are printed on. Distrust but verify. 
North Korean cheating on previous agreements makes it even more 
important to have more robust and intrusive verification regime 
than in the past, and again, I would point to the arms control 
treaties we had--START, INF, and CFE--with the Soviet Union as 
an example.
    We need to maintain pressure until significant progress is 
achieved. U.S. negotiators should make clear the differences 
between negotiable trade sanctions such as constraints on 
resources, import and export of the U.N. resolutions, and 
nonnegotiable U.S.-targeted financial measures, which are law 
enforcement measures.
    The North Korea Sanctions and Policy Enhancement Act 
Sections 401 and 402 allow the U.S. to suspend sanctions for up 
to 1 year or remove sanctions only if North Korea has made 
progress on several stipulated issues.
    The U.S. and South Korea should not sign a peace treaty 
until the North Korean nuclear threat is eliminated and the 
conventional threat reduced. The North has extensive military 
forces along the DMZ and we should use measures such as those 
in the CFE treaty and the CSBM agreement to minimize that 
threat.
    There should be no normalization of diplomatic relations 
without progress on human rights. The U.N. Commission of 
Inquiry concluded that North Korea's human rights violations 
were so widespread and systemic and egregious that they 
constituted crimes against humanity, and Kim Jong-un is on the 
U.S. sanctions list for human rights violations.
    In conclusion, the U.S. and its allies must keep its shield 
up and its sword sharp until the threat necessitating their 
need is removed or reduced.
    President John F. Kennedy declared the cost of freedom is 
always high, but Americans have always paid it. We share common 
values and common cause with our South Korean ally.
    So yesterday, today, and tomorrow (foreign language spoken) 
``we go together.'' Thank you again for the privilege of 
appearing before you.
    [The prepared statement of Mr. Klingner follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

    Mr. Yoho. Thank you for that.
    Dr. Green.

STATEMENT OF MICHAEL J. GREEN, PH.D., SENIOR VICE PRESIDENT FOR 
   ASIA, JAPAN CHAIR, CENTER FOR STRATEGIC AND INTERNATIONAL 
                            STUDIES

    Mr. Green. Chairman Yoho, Ranking Member Sherman, and 
members of the committee, thank you for inviting me back this 
time to talk about the outcomes of the June 12th summit.
    I hope I can add some clarity on what was achieved, what we 
failed to achieve, and what we may have unleashed in terms of 
broader geopolitics in Asia with this summit. In each of these 
areas I think there is an oversight role for Congress, which I 
will touch on in my remarks.
    As several of the members of the committee have noted, Kim 
Jong-un has certainly achieved two of his objectives--first, he 
is now able to claim de facto U.S. recognition of this nuclear 
weapons status.
    When I was in the White House under President Bush, the 
North Koreans wanted a summit with George W. Bush. They tried 
to get one with Bill Clinton. They tried to get one with Barack 
Obama.
    Those Presidents said no because they thought the North 
Koreans were doing this to try to claim de facto status for 
their nuclear weapons.
    Kim has checked that box. We can debate about whether it's 
worth it, but that's one accomplishment.
    Second, as has been mentioned, Kim has successfully blunted 
sanctions. Not necessarily U.S. sanctions but China's 
imposition of sanctions. China counts for 90 percent of North 
Korean trade.
    What did the United States achieve? North Korea has stopped 
testing ballistic missiles and nuclear weapons. Kim probably 
knows that if he resumes testing the President will put back 
together the maximum pressure of international coalition of 
sanctions, if not military options.
    But we should also acknowledge that North Korea had 
violated every freeze in the past and could do so again at any 
time, and as others have mentioned on the committee, a freeze 
in testing is not a freeze in production and development of 
weapons and fissile material.
    The language, as my colleague pointed out, in the June 12th 
summit falls far short of previous agreements. Kim's firm and 
unwavering commitment to complete denuclearization of the 
Korean Peninsula is a line I heard and saw in documents in many 
negotiations with the North.
    When they say this, they mean we'll denuclearize when you 
denuclearize, meaning when you stop protecting Japan and Korea 
stop sanctions.
    The North Koreans look at the nonproliferation treaty of 
1968 with the U.S. and other nuclear power's promise to get rid 
of nuclear weapons and I think Pyongyang realizes that's what 
you say to get membership in the nuclear weapons club.
    So like Mr. Klingner, I don't put much value on that 
particular statement. It's possible Secretary Pompeo will be 
able to produce more details than we've seen. I certainly hope 
so.
    The pattern in the past has been for North Korea to 
prevaricate and not implement after the ink dries, and I think 
Congress can help Secretary Pompeo get more leverage in that 
difficult process.
    We'll know it's different this time or potentially 
different if Secretary Pompeo can get the North Koreans to 
produce a statement on North Korea's full weapons and missile 
inventory and a verification plan.
    We were supposed to get this in the Six-Party Talks I 
joined. They were supposed to be part of the agreed framework. 
Doesn't mean that they would go down that path but it's the 
first necessary step.
    Absent real steps toward denuclearization of that kind, 
Congress would be right to insist on fuller implementation of 
sanctions including secondary sanctions against Chinese or 
Russian firms, and I would argue to do so before the September 
U.N. General Assembly when Kim Jong-un is expected to be 
addressing the international community.
    Also, U.S. unilateral sanctions, while they're still on, 
are not a passive instrument. It takes active implementation. 
Is the administration going to do maritime interdiction 
operations when we catch the North Koreans transporting 
dangerous materials? Will they be imposing sanctions when they 
catch new banks?
    I think Congress has an important role in pushing the 
administration not only to maintain sanctions but to actively 
implement them.
    A second area requiring greater congressional oversight is 
management of our alliances. All of us who work in Asia were 
confused or disturbed by the President's abrupt cancellation of 
U.S. joint military exercises.
    This was not a unilateral decision, if you were in Japan or 
Korea or Australia. This was a bilateral decision between North 
Korea and the U.S., proposed by China and Russia, with no 
consultation with our closest allies, compounded by the 
President's statement that someday he'd like to get out of 
Korea altogether.
    I think most veterans of North Korea diplomacy, Republican 
or Democrats, would say they hope the President succeeds. We 
should give Secretary Pompeo the leverage he needs. But it 
probably won't work.
    What we do know for sure is we are going to need our 
alliances. We'll especially need them if North Korea continues 
developing dangerous weapons.
    We are also going to need our alliances because we are 
playing two games of chess in Asia right now. We are not just 
playing this game of chess with North Korea. We are playing a 
much more consequential long-term game with China about who's 
going to dominate the rules and security in this region.
    On that chessboard, we make a mistake sending signals of 
lack of resolve or potential retreat on our alliances. I think 
the administration would be appreciative, perhaps, of Congress 
asking how this negotiation is going to advance the strategy 
that the President's own national security strategy and the 
national defense strategy articulate that we are in a 
competitive game with China.
    How will our diplomacy with North Korea--how will our 
coordination with our allies help us in that other chess game, 
which is no less important to our security than what the 
President is trying to do with North Korea?
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Green follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]   

                              ----------                              

    Mr. Yoho. Thank you for your comments.
    Mr. Denmark.

 STATEMENT OF MR. ABRAHAM DENMARK, DIRECTOR, ASIA PROGRAM, THE 
        WOODROW WILSON INTERNATIONAL CENTER FOR SCHOLARS

    Mr. Denmark. Chairman Yoho, Ranking Member Sherman, members 
of the committee, it's an honor to be invited to give testimony 
today to review last week's remarkable summit between President 
Trump and Kim Jong-un.
    Before I begin, I would just like to emphasize that the 
views expressed in this testimony are mine alone and not those 
of the Wilson Center or the U.S. Government.
    I am a strong supporter of diplomacy with North Korea. I 
work this challenge every day during my most recent appointment 
at the Department of Defense and I am deeply familiar with the 
risk associated with the military conflict with North Korea.
    Still, we should remember that diplomacy is a tactic, not a 
strategy and certainly not an objective. While the diplomatic 
process that has begun--that has begun may yield results 
eventually, the unfortunate fact is that the United States got 
a bad deal in Singapore.
    First, I would like to summarize what happened. The most 
geopolitically significant outcome of the summit was to set the 
U.S.-DPRK relationship----
    Mr. Connolly. Excuse me, Mr. Chairman. Could we ask Mr. 
Denmark to pull that mic closer to him? It's a little hard to 
hear you.
    Mr. Denmark. I apologize, sir.
    Mr. Connolly. Thank you.
    Mr. Yoho. Not a problem. Thank you.
    Mr. Denmark. The most geopolitically significant outcome of 
the summit was to set the U.S.-DPRK relationship onto a 
diplomatic track.
    Additionally, the President suspended major U.S.-ROK joint 
military exercises. This gave away a major piece of leverage 
while over time weakening the capabilities of our forces 
stationed in Korea for no appreciable gain.
    I should add that I disagree with the President's 
characterization of these exercises as provocative. These 
exercises are stabilizing and defensive, and they are essential 
for deterrence, reassurance, and readiness.
    This is not to say that military exercises are sacrosanct. 
Adjusting exercises should be part of a negotiation.
    In any case, suspending exercises does not require the 
President denigrating their utility. There is also a lot that 
didn't happen in Singapore. Most importantly, North Korea made 
no new commitments toward denuclearization.
    North Korea remains free to manufacture more nuclear 
weapons, ballistic missiles, and other weapons of mass 
destruction. There is no deadline for them to eliminate their 
illegal capabilities or even to freeze their continued 
production.
    Further, as you can see in the chart I appended to my 
testimony, North Korea's denuclearization commitment made last 
week was the least specific commitment it has ever made.
    Moreover, the joint statement from Singapore made no 
mention of verification. Considering North Korea's repeated 
history of violating past agreements, there is little reason to 
trust them this time.
    I would point to four significant implications of the 
Singapore summit. One, despite the President's claims, North 
Korea remains a significant threat to the United States and our 
allies in East Asia.
    North Korea has the same ability today to attack our allies 
and possibly the United States as it had before the President 
met Kim.
    Two, the summit was a tremendous propaganda victory for Kim 
Jong-un. This is why previous Presidents have refused to meet 
with North Korean leaders. Doing so in itself is a major 
concession and conveys tremendous legitimacy to the North 
Koreans.
    Three, the summit injected a new turbulence into U.S. 
alliances with Japan and the ROK. The President's effusive 
praise of Kim Jong-un and his willingness to meet with Kim and 
make significant concessions despite making so little progress 
on denuclearization inflamed allied concerns about U.S. 
reliability.
    And four, China got everything it wanted. China has long 
sought for the United States to be committed to a diplomatic 
process and to suspend its military exercises in Korea.
    To conclude, I would like to offer four points on next 
steps. On the first, time is not on our side. North Korea can 
continue to mass produce nuclear warheads and ballistic 
missiles as Kim Jong-un actually called for in his New Year's 
speech in January.
    There is a danger that the U.S. has entered into an open-
ended diplomatic process which would give North Korea a 
distinct advantage.
    One way for the United States to address time pressures in 
this negotiation would be to achieve a complete freeze on North 
Korea's nuclear and ballistic programs as an early step in this 
process.
    Second, to supplement the President's trust of Kim Jong-un, 
the U.S. should insist on strict inspection and verification 
regimes to accompany any concession North Korea may make toward 
denuclearization.
    Third, the United States should prepare for increased 
friction with China over maintaining pressure on North Korea. I 
expect China will soften its enforcement of sanctions on North 
Korea and the United States should expect to be prepared to 
hold China accountable, even to the point of enacting secondary 
sanctions on China's entities that continue to do business with 
North Korea.
    And fourth, considering the continued threat posed by North 
Korea, the United States should ensure that its military forces 
and alliances in the region remain ready and robust.
    Any strategy toward North Korea is far stronger if the full 
weight of the United States and our allies can be brought to 
bear.
    Further, the people of the U.S. military deserve the 
resources needed to do their job effectively and the ability to 
exercise as needed.
    Readiness saves lives and ensures that our military remains 
the most awesome feared fighting force in the history of the 
world.
    Going forward, we must remain clear-eyed about how we are 
dealing with. The threat from North Korea remains real and Kim 
is not to be trusted.
    A credible high-quality deal will be very difficult to 
achieve and even more difficult to implement and verify. After 
the pageantry of Singapore, the difficult work of diplomacy and 
denuclearization still lies ahead.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Denmark follows:]
 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Yoho. Thanks, everyone, for your testimony. I look 
forward to getting into the questions.
    You know, you brought up--Mr. Denmark, you brought up a 
very good point. It's a tremendous propaganda win for Mr. Kim 
and I think most of the world sees that and I think a lot of 
people here feel that, too.
    But it's also a tremendous opportunity. I was born in 1955. 
That conflict has been going on ever since then. You know, we 
are operating under an armistice for all those years.
    It's time to bring finality to something, and when we get 
to that point then you have certainty, and when you have 
certainty you can develop trade and all those things in the 
economy.
    And until we get to that point, we are not going to have 
that kind of stability on that peninsula, as I think we all 
agree.
    What I see with what President Trump has done is he's 
changed the dynamics of negotiation, and, you know, whether 
it's good or bad, the future will tell us.
    But what I see he has given the ball or a pass to Mr. Kim, 
and it's an opportunity. What he does with it will determine 
the next steps.
    You know, some people look at it as a rope--if he does bad 
that he'll hang himself with it. Others will see, you know 
what, this is a chance that they can change the dynamics on 
North Korea--of North Korea and develop an economic engine, and 
I can only think, because we were talking about when he was in 
Singapore.
    Here you have a young leader of a country that doesn't have 
much outside exposure. Thirty-four years old--goes and sees Xi 
Jinping in China, sees their economic engine there. Goes to 
Singapore, sees the economic engine.
    The things that he sees, he has to go home thinking why 
can't this be my country. Now he's got to deal with how do I 
bring this in there. Hopefully, that's what he's seeing, and I 
think with the President allowing him--and I don't want to use 
the word legitimacy--but allowing him to move into the 
negotiations, I think this is, as we've said multiple times, 
historic.
    Where it goes from here will be based on the next steps, 
and it's going to be a step by step process, and I think you 
have all brought up a very good point that we have to make sure 
that the sanctions stay ratcheted up and so I think along those 
lines, as we start negotiation, what I see as one of the most 
important things is the definitions--definitions of 
denuclearization--what does that mean to the North and what 
does that mean to the peninsula and the rest of the world.
    Verification--and I want to ask the question, who should do 
the verification? Should we rely on the IAEA that I, 
personally, don't have a lot of confidence in, or should it be 
a coalition of the partner countries--South Korea, North Korea, 
us, and maybe for balancing, allow somebody from China or 
Russia there?
    I would like to have your opinion on that and then we'll 
ask you a few more questions. Bruce?
    Mr. Klingner. Verification is an issue dear to my heart. I 
was a chief of the arms control staff at CIA and I served on 
one of the negotiating delegations overseas.
    So it's really a two-part thing. One is the measures that 
you have in the treaty, in which everyone knows exactly what 
their responsibilities are and you provide the details of how 
that is done.
    And then that's used in conjunction with your national 
technical means so that you can verify that. But you do need 
on-site inspection.
    So with the inspectors, whether it's IAEA or a coalition or 
whether we call it other things, I think what you will need to 
do is have on any teams at least one American and one Chinese 
representative, because the Americans are going to want to have 
eyes on where we see if something is a violation or not, and if 
we call it a violation China would likely disagree. So you 
probably need them there on the same team.
    Mr. Yoho. Right.
    Mr. Klingner. Now, things--when you get to actual fissile 
material and actual nuclear weapons, you would probably want to 
restrain that to the five members of the P-5 who have nuclear 
weapons.
    So if you're getting into that level of radioactive and 
nuclear weapons, I think you keep it to a very select few 
countries.
    Mr. Yoho. Okay.
    Mr. Klingner. But the U.S. wouldn't have enough inspectors 
to man all of the inspections. So you would need other 
countries. But I think we'd have to have U.S. representation on 
every team.
    Mr. Yoho. All right.
    Let me go down to Dr. Green.
    Mr. Green. We, in the Six-Party Talks, did considerable 
work on this with other nuclear weapon states, principally 
Britain and France, but also Russia, which was helpful at the 
time, and to a lesser extent, China, which has very limited 
experience in arms control.
    The work has been done on what this should look like and 
the State Department and the CIA and others would have it.
    As Bruce points out, the IAEA has a role in safeguards in 
places like Yongbyon, but nuclear weapons they don't do, so 
that would require some accommodation of the permanent five and 
most likely U.S. and Russia, Britain, and France would be at 
the core of it.
    As Bruce points out, China has a major equity, and although 
they have less experience, should probably be there.
    Stanford University did a study that suggested even under a 
permissive environment, in the very unlikely event that Kim 
Jong-un really wants to denuclearize, this is a 10- to 15-year 
process.
    And even then, the scientists and engineers have all that 
information in their heads and what do you do with them? So the 
reality is there is no end date for CVID. It's a constant 
ongoing process.
    The other problem is precisely because it has to be in 
iterations that North Koreans and China will use that to try to 
get rewards for small increments and to hold up progress.
    So one of the tough challenges for the Secretary of State 
is what's an early harvest that shows us seriousness. I think a 
declaration is one of them. Getting out fissile material 
weapons might be next.
    Mr. Yoho. All right. Mr. Denmark--20 seconds.
    Mr. Denmark. I don't have much. I thought the answers were 
very good. I agree that the IAEA has an important role to play.
    But there is a difference between inspection, verification, 
and actually pulling the weapons out--that the P-5 is going to 
have an important role to play.
    The different countries have various levels of capability. 
I am especially concerned about China's ability to actually 
handle those responsibly.
    But overall, I think it's important to make sure that any 
verification regime is robust. As Dr. Green said, this is going 
to require very intense--very intrusive inspections. That's 
difficult for any country to really accept and for a country as 
self-isolated as North Korea it's very difficult to see.
    But it's going to be an extremely long process. There is 
really no such thing a quick denuclearization.
    Mr. Yoho. Right. Thank you.
    I will next turn to the ranking member, Mr. Sherman of 
California.
    Mr. Sherman. Thank you. One bit of disagreement with Dr. 
Green. It may take 10, 15 years to root out every piece of the 
North Korea nuclear program.
    But if they stop the centrifuges, dismantle them, ship 
fissile material, that is something Iran did in 90 days and 
could have done quicker, and that would make us all sleep a 
little better.
    I do have a comment or two about Mr. Rohrabacher's opening 
statement. First is I believe it's President Eisenhower who is 
the President who did the most to bring peace to the Korean 
Peninsula.
    And second, I want President Trump to succeed and, beyond 
that, I have defined success with a lower, more achievable 
standard not only that any Democrat in the room but any 
Republican in the room, although we haven't heard from the 
gentlelady from Hawaii yet, but in a much more achievable lower 
standard for success than anyone else I know actively involved 
in foreign policy.
    But as Mr. Green points out, just doing a meeting that's 
not an achievement. That's a concession. The last four or five 
Presidents were all begged by North Korea to do this meeting. 
They all decided it was a concession they were unwilling to 
make.
    I want to focus a bit, because we have a Japan expert with 
us here--Dr. Green. It is very anomalous that you have in Japan 
the third largest economy in the world who, as of now, is doing 
nothing with its own military forces or preparing to do nothing 
with its military forces to defend its own back yard.
    Now, the Japanese constitution talks about this or that, 
but the U.N.--the mission to defend North Korea is a United 
Nations mission, and many countries believe that meeting their 
U.N. obligations is something they're legally able to do.
    What do we do to have the Japanese military be willing and 
prepared to be part of the effort to defend South Korea?
    I realize that not all the problems are in Tokyo.
    Mr. Green. No, they're enough. First of all, I think you 
put that very well.
    North Korea could, in a month, in a week, ship out 
centrifuges, fissile material, nuclear weapons, and in a month 
or 2 ship out all of it.
    The full CVID is what's going to take 10 or 15 years. So I 
think--I agree with you actually. I think that's an important 
point for the record.
    Under Prime Minister Abe, Japan has revised the 
interpretation of the constitution to allow for the first time 
in the post-war period Japanese forces to plan jointly with the 
U.S. to move and operate together, and that's a significant 
move.
    He's moved--he's increased the defense budget a little bit. 
Japan should spend more. He's moving--he said he's going to buy 
new weapons systems that Japan had never had.
    Mr. Sherman. But how do we get those joint trilateral 
exercises?
    Mr. Green. So that is a problem. The Japanese defense 
forces are keen to exercise with Korea. The Korean defense 
forces are keen to exercise with Japan because they recognize 
what you said. If we are not working together it's dangerous 
for all of us.
    It's the political level that's the problem. Right now 
the----
    Mr. Sherman. Is it politically dangerous for a South Korean 
President to say hey, we are going to have joint trilateral 
exercises? Would that have been dangerous before Singapore? Is 
it dangerous after Singapore--politically dangerous?
    Mr. Green. I don't think it is. It's not easy, but I don't 
think it's difficult and, frankly, if we pushed----
    Mr. Sherman. And how difficult would it be for Abe to----
    Mr. Green. Abe would do it. The problem is that the South 
Korean side, as Bruce and Abe know well, the South Korean side 
is not satisfied with the agreement that Prime Minister Abe 
made with the previous President about historical issues like 
the comfort women, and that's a political and social and other 
problem.
    But in terms of the militaries--Japanese and Korean realize 
they have to work together jointly and, you know, in my view, 
the administration should be pushing harder on this.
    The exercises we do with the South Koreans are suspended. 
The South Korean military is going to go ahead with another 
exercise to defend the small island of Dokdo against the 
Japanese. That's the wrong enemy.
    Mr. Sherman. What?
    Mr. Green. The wrong enemy, yes.
    So I am glad you flagged it in your opening comments. I 
think it should be a priority. I think that the--that the 
Japanese and Korean military experts, diplomats, should think 
about the North Korean problem, recognize it. It's the 
politicians who have to be pushed to increase the collaboration 
between the two.
    Mr. Sherman. Thank you.
    Mr. Yoho. Next we'll go to Dana Rohrabacher from 
California.
    Mr. Rohrabacher. A couple of thoughts. I am sorry I would 
disagree with my colleague and the witness as well. You both 
seem to be underestimating the antagonism of the Korean people 
to the Japanese.
    And I am sorry, it's not a good thing. I don't like it. But 
it better be a factor in how we create a more peaceful 
situation in that part of the world.
    The Koreans have never forgiven the Japanese for the Second 
World War, and but that does not mean we should not--we should 
not be moving forward with a plan that would increase Japan's 
at least capacity in that region but not necessarily having 
military maneuvers aimed at something going on in Korea. I 
think that would be counterproductive.
    With that said, let me also note when I said that this 
whole thing is a, you know, deja vu all over again. Let us note 
that of my colleagues who are saying we didn't accomplish 
anything and my witnesses suggest it wasn't accomplished, that 
Reagan, when he was negotiating, when he went to Reykjavik and 
elsewhere, this was predicated how we ended up turning what was 
a slamming of the door--Reykjavik--to another situation was 
Ronald Reagan proposed the zero option, and he was--by the way, 
most people forget that.
    And, again, castigated by the liberal Democrat opponents of 
Ronald Reagan as being a fraud and you're never going to get 
them to agree to that.
    We want the nuclear freeze, which would have frozen the 
Soviets into a--into a superior position with nuclear weapons 
and Reagan said no, we are going to go for the zero option and 
he was called--they said he's being disingenuous. The 
Democratic attacks on Trump are almost exactly the same, and 
the fact is that in the end the Soviets agreed to the zero 
option, and in the end we eliminated a whole schedule of 
nuclear weapons in Europe because yes, the President did not 
demand immediately to have something to show for every meeting 
that he was in and had a long strategy that worked.
    I believe that's what's going on right now, and our 
President has opened the door. He's opened the door, and I 
agree with Mr. Kinzinger, I should say--not Kissinger--who 
pointed out military--maintaining a strong military possibility 
and that's why I was talking about Japan and helping them build 
forces there, was an important component about bringing 
together the end of the Cold War and would be important to hear 
as well.
    In the Cold War, while Ronald Reagan had his hand out, he 
also was supporting mujahadeen guerillas in Afghanistan, the 
contras in Nicaragua, various elements in eastern Europe who we 
were supporting under cover like Walesa and others. And so my 
colleague is exactly right, it needs to be a two-fisted thing.
    But I have no reason--I do not believe there is any reason 
for us to suspect that this President--we keep treating him as 
if he doesn't know what he's doing. He understands the basics, 
and there's a fellow who wrote a book in my district called 
``No Profit Without Risk.'' His name is Bob Mayer. Bob Mayer is 
a very successful businessman.
    Our President is very successful businessman. He realizes 
there will be not progress without some risk, and what you--and 
what--but you should not castigate this President and undermine 
his position as being taking--as possibly having a rational 
approach rather than just dismissing him as oh, this is just so 
risky--we shouldn't be doing this.
    I think he's putting us in a position, like Reagan did when 
he said the zero option, not nuclear freeze, to actually put us 
in a position to end the conflict on the Korean Peninsula.
    And the goal isn't just taking nuclear weapons out of the 
hands of North Korea. The goal is to unify Korea in the end 
under a somewhat democratic country.
    And one last note, and I want your comments on this--sorry 
I am taking up all this time--but the fact is that this Kim is 
different than his father and his father's father.
    And when you say that, as my colleague just said, but he 
went to Singapore, maybe he saw the potential of the West--this 
man, this young leader Kim, he was educated in Switzerland at 
an elite and prestigious school.
    He knows so much more than what his father and his father's 
father knew that perhaps these things that we are talking about 
make sense that you're dealing with a rational person rather 
than a rabid Marxist dog like his dad and his grandfather.
    So I am sorry. I've used up my time. Could they have a 
minute to comment on--feel free to disagree.
    Mr. Yoho. Real briefly, if you can comment.
    Mr. Klingner. I think in many ways Kim Jong-un is different 
from his predecessors but in many ways he is similar. It 
perhaps is a more effective implementation of a three 
generation game plan by the North Koreans.
    North Korea has had a two-page play book of alternating 
threats, attacks with charm offensives, although with North 
Korea it tends to be more offensive than charming.
    With Kim Jong-un, he, for 6 years, only did the first page 
of his father's play book and he did it on steroids with an 
accelerated test schedule.
    And since January he switched to the second page and also 
done that sort of on steroids, where he's now had the revolving 
door of summits.
    So the whiplash effect is strong in going from one extreme 
to the other. But I think it's still trying to implement the 
objectives of his father and his grandfather of being accepted 
as a nuclear state, of reducing the pressure and isolation on 
North Korea, getting economic benefits but on North Korean 
terms.
    They want to get the economic benefits but they don't want 
to open their country to what they see as the contagion of 
outside influence.
    Mr. Yoho. Okay. Thank you.
    We are going to go on, just out of respect for the other 
members.
    Mr. Connolly from Virginia.
    Mr. Connolly. Thank you, Mr. Chairman, and let me thank you 
for putting together an intellectually honest panel. I've gone 
to way too many committee hearings on this committee over the 
years where we have a skewed panel. Even the title of the 
hearing predetermines the outcome of the hearing.
    Mr. Yoho. We try to be fair and balanced.
    Mr. Connolly. Well, you have been more than that.
    No, seriously, I really thank you because I think we are 
having an intellectually honest conversation about something 
that's terribly important.
    My friend from California I think does not accurately 
recall history, even though he worked for Ronald Reagan. My 
recollection of the Reykjavik summit was that when Ronald 
Reagan said, why don't we just get rid of all nuclear weapons, 
it was the neocons in his own administration who were shocked 
and distressed, not liberal Democrats.
    And secondly, I must remind my friend from California, I 
sat here for 8 long years and I don't remember my friends on 
the other side of the aisle giving the very kind of 
consideration he now asks of this President to President Obama. 
And what's sauce for the goose is sauce for the gander.
    So we Democrats reserve our right, the right you exercised 
for 8 years, to criticise this President and we are going to do 
it carefully but with some zeal.
    Let me--let me summarize, if I may, what I've heard from 
all three of our witnesses. We have a history of violations by 
the North. Don't get too excited about anything they sign on 
to.
    Added to the fact that this joint statement after the so-
called summit actually lacked specificity. I think it was you, 
Mr. Klingner, who said--or maybe you, Dr. Green--it actually is 
less meat on the table in this statement than some of the 
previous ones.
    We still have a huge human rights problem. Again, I was 
listening to my friend from California. You would never guess--
you know, he had his uncle executed in a horrifying way. You'd 
never guess he still presides over gulags of tens of thousands 
of North Koreans. You'd never guess that he had his step-
brother assassinated--killed at a modern airport in Asia, but 
okay.
    You have the effect--I think, Dr. Green, you talked about 
the de facto lessening of sanctions with China. This kind of 
gives a little bit of a green light to China, maybe not others 
about certainly China, and that's not a good thing, given the 
fact that most of their trade is with China.
    We have the recognition of their nuclear status de facto by 
having the summit by the United States. WE elevate his stature, 
which they've been seeking, as you pointed out, Dr. Green, for 
the previous three or four administrations. This is the first 
one to give it to him.
    And in return, we've gotten no commitment on 
denuclearization, no commitment on inspections, no commitment 
on metrics, and as I said in my statement, the problem 
President Trump has is by ripping up Iran, which was working 
and that had very specific metrics, one has to presume, since 
he decided that was inadequate, that with respect to North 
Korea or any nuclear threshold state, we are going to have 
higher metrics--we are going to have a higher standard they 
have to meet. And I don't know how you do that, frankly, with 
North Korea. I think Iran complicates the problem.
    But I also think just this so-called summit--I don't want 
to take anything away from shaking hand and having a photo op, 
but I think there's danger in terms of the expectations that 
have been raised, in the concessions de facto that have been 
granted.
    I now welcome you to comment on that.
    Doctor--Mr. Klingner.
    Mr. Klingner. I've been working on North Korea for 25 years 
so I tend to be skeptical and cynical. But perhaps you are even 
more skeptical than I.
    No, I agree. I would say the summit as--it's a first step. 
We can discuss, debate how successful it was, how good a first 
step it is.
    But as you know, my colleagues and I have tried to identify 
the things that we need to do to put the meat on the bones 
and----
    Mr. Connolly. Yes, but I am not trying to be skeptical. I 
am trying to raise--I am trying to be realistic, and what I 
listed was actually feeding back what I heard from your 
testimony, which I thought was very helpful.
    You know, yes, be hopeful but let's be realistic. Not like 
we don't have a history here.
    Mr. Klingner. Right. No, exactly, and just to boil it down 
I would say is we need very detailed texts and then very good 
verification.
    You know, not only do they have a different definition of 
denuclearization, but when they define the Korean Peninsula, 
it's anything that influences the peninsula, including our 
bombers in Guam and our submarines and our aircraft carriers.
    So we need to get the terms straight and we need to look at 
sort of the arms control treaties we had to be very, very 
specific--a very detailed contract with someone who has cheated 
us many times in the past.
    Mr. Connolly. If the chair would allow the other two 
witnesses to answer and then I yield back my time.
    Mr. Yoho. Go ahead.
    Mr. Connolly. I thank the chair.
    Mr. Green. So, Representative Connolly, I think you have 
accurately captured the core points we are all trying to make 
and that, I think, points to the important oversight role 
Congress should have in this and in any negotiation the 
negotiators help by a good cop-bad cop, and there's a role that 
could be a bipartisan role for this committee and for the 
Congress, in my view.
    If I could very briefly pick up on Mr. Rohrabacher's point 
about Ronald Reagan. You know, it was Richard Nixon, a 
conservative Republican, who changed relations with China. 
There is an argument that we should not dismiss, that any 
conservative Republican President can do this because of the 
curious politics of it all.
    However, I think there are two lessons from Reagan that 
would be important to remember.
    You know Ronald Reagan went to Reykjavik, having presented 
an absolutely unwavering commitment to human rights and 
democratic values, and a clear and unchanged, unrivalled, 
frankly, commitment to our allies.
    When the Soviets deployed SS-20s in Europe and NATO, he 
went right back, toe to toe, with tactical nuclear weapons. If 
we look for the opportunity for a Republican President to do 
something like this with North Korea, it is absolutely 
essential for President Trump to remember what Ronald Reagan 
did.
    And what we've heard so far has not been a Reagan-like 
commitment to democratic values, to human rights, and to our 
allies, which is an essential backstop precisely because North 
Korea is targeting the U.S.-Korea alliance as the center of 
gravity they don't want to break and China is targeting our 
alliances as a whole, and that's an important--the Reagan 
parallel could work. But I think those two caveats are 
absolutely essential to remember.
    Mr. Yoho. Mr. Denmark, real quick.
    Mr. Denmark. Yes, sir. I agree that you summarized the 
points that we've been making a great deal, and I think--I 
agree that there's a tremendous role that the Congress has in 
terms of oversight.
    The one point I would like to add and it feeds into some of 
the discussion that was had earlier but I didn't have time to 
in my opening statement, one of the key aspects of any 
negotiation is to know what the other guy on the other side of 
the table wants--what they're trying to get out of this 
negotiation.
    And if you look at everything that Kim Jong-un has done--
you said earlier that Kim Jong-un may be different from his 
father or his grandfather--since taking power, Kim Jong-un 
accelerated nuclear testing, accelerated ballistic missile 
testing.
    If you look at his New Year's statement from January of 
this year, his version of the State of the Union Address, he 
embraced nuclear weapons, declared the whole program a success 
and said that he wanted to turn toward economic development, 
but as a nuclear power.
    I have yet to see any indication that Kim Jong-un is 
looking at disarmament or denuclearization. My sense is that he 
believes he wants to be entering into arms controls 
negotiations the way that we were doing in Reykjavik, not 
denuclearization negotiations, and if you have a good sense of 
right, I strongly recommend that you would read the New Year's 
address.
    The translation is in English. It's very clear. He's 
looking to engage the world as a nuclear power, and until we 
have a good understanding of what he's actually trying to get 
out of it, these negotiations are going to be difficult to even 
move a bit forward because we have different objections in 
mind.
    Mr. Yoho. Thank you.
    Next we'll go to Ambassador and Congresswoman Ann Wagner 
from Missouri.
    Mrs. Wagner. Thank you, Mr. Chairman.
    The U.S. faces two threats in Northeast Asia--North Korea 
and China. My father served in the Korean War and the stalemate 
in the region persists to this day.
    America's intervention in Korea in 1950 was a strategic 
success in preventing an important buffer region from becoming 
a zone of communist influence and strengthening the United 
States' hand in the broader Cold War. Cold War is over, but 
today the North still serves as a buffer state for China.
    Rapprochement between the U.S. and North Korea could 
possibly threaten China's influence over the Kim regime.
    Dr. Green, North Korea is useful to China because it 
distracts and challenges the U.S. and our South Korean 
alliance.
    At the same time, the Kim regime is vulnerable because of 
its strategic and economic dependency on China. China is North 
Korea's real long-term threat, not the United States.
    Do you believe China has an interest, Dr. Green, in our 
negotiations failing?
    Mr. Green. You know, I think we don't get to read about the 
Chinese debate because they don't have an open vibrant 
political system like we do.
    But I think in Beijing they are as confounded by North 
Korea as we are, in many respects. I think you accurately 
captured their strategic view but there are huge debates within 
the leadership compound in Zhongnanhai, I am sure.
    I think from China's perspective, the operative approach is 
not today--don't let North Korea collapse today--don't have 
unification today--kick this can down the road.
    In 10 years, in 20 years, in 30 years China will be more 
powerful. It will have more control over North and South Korea. 
China will be in a position to affect unification of a 
peninsula with no American alliance.
    So China has every incentive to lower tensions but also to 
just kick this can down the road, and that's our problem, and 
part of the solution is our alliances, because China assumes it 
will be more powerful and have more influence over South Korea 
as time passes.
    But if we are faithful to our allies, if we are strong on 
trilateral defense cooperation with Japan and Korea, if we 
don't say we want to get out of Korea, if we do all of those 
things, we signal to China that North Korea is making our 
alliances stronger--thank you very much, Beijing--so if you are 
worried about that, you need to put more pressure on your 
friends in Pyongyang--the game of alliances and U.S. and China 
is an essential part of how we get purchase on the----
    Mrs. Wagner. How can the U.S. best manage China's interests 
as it negotiates with Kim? Because, frankly, kicking the can 
down the road is a negotiation failure at this point in time.
    Mr. Green. Yes, in the sense that we won't get a result. 
It's a success for China and interests converge in North Korea 
because it just sort of prevents the U.S. from taking action.
    Look, we had the Six-Party Talks. They failed to get North 
Korea to denuclearize. I was involved in that at the time. One 
useful thing about it was it got China, Russia, Japan, Korea 
all around the table. They all have equities. Only China, North 
Korea, U.S., and South Korea would be in a peace negotiation to 
replace armistice.
    We will need a broader diplomatic framework that gets----
    Mrs. Wagner. I am running out of time.
    Mr. Klingner, is it possible to check the growth of Chinese 
power through our negotiations with Kim? Namely, what could we 
do to turn the North into a buffer zone for our own interests?
    Mr. Klingner. Well, I think the North Korean-Chinese 
relationship is strained. It's more strained now than under the 
previous leaders in North Korea.
    You know, 5,000 years of history and 1,000 invasions or so 
have caused North Korea to have a very suspicious view of its 
neighbors. They see it as a shrimp amongst whales.
    Each of the leaders in North Korea has warned that China is 
a bigger threat to North Korea than the U.S. because of its 
intent to influence North Korea.
    So the North Korean nuclear program was a response to 
feeling that both the Soviet Union and China were not going to 
protect North Korea to the degree that they needed.
    So I think North Korea is playing all these countries, all 
these neighbors, off against each other. The thing with the 
alliances is that they are multi-purpose tool, so that they are 
not only deterring and defending against the North Korean 
threat but they're also serving to protect not only U.S. and 
allied interests----
    Mrs. Wagner. Thank you. I hate to interrupt.
    But Mr. Denmark, we know Kim has been talking with Xi 
Jinping throughout this process. China has lost influence in 
North Korea's top circles of power. But what role is Xi playing 
in our negotiations? Do you think China has the ability to 
influence Kim as he enters negotiations with the U.S., and how?
    Mr. Denmark. I do believe that Xi Jinping has a multiplying 
effect. I think his primary message from all these meetings 
that he's been having with Kim Jong-un is to show that China 
has a critical role to play and China will not be bypassed.
    The most important role that China will have in these 
negotiations will be in maintaining economic pressure. As the 
Trump administration has said, they want to make sure that 
North Korea remains under significant economic pressure until 
it makes significant steps toward denuclearization.
    The challenge, of course, is that the vast majority of 
international trade for North Korea goes through China, and 
China has, in the past, proven inconsistent, you can say, in 
its willingness to engage those sanctions and to enforce those 
sanctions.
    One of the challenges that we are going to have, going 
forward, is that many in China, as Dr. Green mentioned, many in 
China increasingly see dynamics on the Korean Peninsula through 
the lens of geopolitical competition with the United States.
    And if China sees progress in some area as being--sees 
increased sanctions, for example, as being an American 
interest, that may be one reason why China may be less willing 
to enforce some of those sanctions, because they see it 
potentially as helping the United States.
    Mrs. Wagner. Thank you.
    My time has expired. I appreciate the chair's indulgence. I 
yield back.
    Mr. Yoho. Thank you.
    Next we'll go to Ms. Tulsi Gabbard from Hawaii.
    Ms. Gabbard. Thank you, Mr. Chairman. I thank the gentlemen 
for being here and sharing your insights.
    I think there's been a lot of focus on the geopolitical 
considerations and impacts of these negotiations. But very 
little focus on the seriousness of the North Korea nuclear 
threat on the United States.
    As the chairman mentioned, I represent Hawaii. Being in the 
middle of the Pacific this is something that is an ever present 
concern for our residents and people who live in our State.
    The false missile alert that we had in January of this year 
brought things into light that many others really didn't 
consider.
    So the seriousness of these talks and this diplomatic path 
failing, very high stakes, and why, I believe it's important 
that these talks happened. Important first step, as everyone 
has said, clearly lacking in critical details, lacking in 
written plan of execution on exactly how this will be done. 
North Korea is still a threat that is posed to us. But we all 
hope for success and want to be supportive in that.
    I have a few questions. I am, first of all wondering what 
your thoughts are on should a nuclear agreement come out of 
these talks, what role approval by the House and Senate has, 
whether this should require ratification by the Senate or take 
a similar route as the previous Iran nuclear deal in allowing 
for congressional disapproval?
    If we are talking about permanent denuclearization being 
most successful, what role do you see Congress playing in that?
    Mr. Klingner. I believe that achieving many issues with 
North Korea, not only denuclearization but a potential peace 
treaty and normalization relations, are of such critical 
importance to the United States that it should be a matter for 
more than just the executive branch.
    I think the legislative branch should be involved. So 
whether that's a formal treaty or interaction with the 
executive branch, I think it is of such importance, 
particularly a peace treaty and denuclearization.
    Ms. Gabbard. So you don't see any major difference between 
ratification of the treaty by the Senate versus some other 
mechanism of approval or disapproval?
    Mr. Klingner. I don't know enough about the mechanics of 
it--a Senate ratification versus other means.
    Mr. Green. The President had waiver authority in the 18 or 
so pieces of legislation that Trading With the Enemy Act and so 
forth--terrorism--these sanctions give the President a 
Presidential waiver. So legally he can lift sanctions in the 
process of rewarding North Korea for steps toward 
denuclearization. But the President has talked about a peace 
regime--a peace declaration--a peace treaty that would have to 
be ratified by the Senate.
    If the United States negotiates a normalization that has to 
be ratified, and if there is to be aid for North Korea, it 
would come through the Asia Development Bank, the World Bank, 
maybe China's Belt and Road. But Congress would have 
authorities and control of the budget.
    So bottom line is if this does move forward there's going 
to be a major congressional role even if the President has 
national security waiver authority on sanctions, and one way to 
construct this would be, like, the Helsinki process in the Cold 
War with the Soviet Union to have a broad framework where there 
are baskets, such as economic development, human rights, 
conventional weapons, and confidence building nuclear weapons 
and with the aim of ultimately moving toward peace treaty 
ratification denuclearization and begin building that process 
with Congress through hearings and so forth to anticipate what 
Congress would expect.
    I think maybe not in the next month or 2 but early on in 
the process that framework should be set up.
    Ms. Gabbard. Dr. Green, you mentioned earlier, I think, 
about how CVID is an ongoing process. It's not something that 
really has a hard finish.
    A lot has been--I think you all talked about the different 
types of verification measures that would be needed. Can you 
talk about the irreversible part of that acronym and how that 
can be executed, especially given your history in this?
    Mr. Green. Well, we never got irreversible, ever, not in 
the Six-Party Talks.
    Ms. Gabbard. Is it possible?
    Mr. Green. If the North Koreans turn over fissile material, 
nuclear weapons, that's irreversible in the sense that they 
can't use those anymore.
    But that doesn't stop them from continuing to spin 
centrifuges to make more uranium-based weapons if we don't know 
where all the facilities are.
    So the only way to get irreversible really, aside from bits 
and pieces, is full inspections, and the North Koreans have not 
even let us look in the keyhole in the negotiations to date. 
The first step will be a declaration.
    Ms. Gabbard. How do you deal with the nuclear scientists 
that they have?
    Mr. Green. Well, you know, Senators Nunn and Lugar have 
legislation to do this with the Soviets that was--appears to 
have been pretty effective and I saw they both spoke recently 
and met with the President, I understand.
    So that might be a model--the Nunn-Lugar legislation to 
employ scientists and engineers, and it's also one we suggested 
to the North Koreans in the Six-Party Talks as a way to help 
compensate them, basically, by hiring scientists and engineers 
for other projects.
    Ms. Gabbard. Thank you.
    Thank you, Mr. Chairman.
    Mr. Yoho. Thank you.
    Next we'll go to Ms. Dina Titus from Nevada.
    Ms. Titus. Well, thank you, Mr. Chairman, and I thank all 
of you for testimony. It's been most interesting.
    I share in your skepticism about this so-called agreement 
and some of the vagueness of the terms--what's the time and 
what's the possible verification--what does denuclearization 
really mean.
    Also, President Trump has been getting a lot of credit for 
putting us in a better position with Korea--than we've been in 
for a while.
    But let us not forget that it was some of his saber 
rattling and his belligerent rhetoric that got us to the kind 
of a crisis situation--the fire and fury, as you recall. So I 
don't think we should give the arsonist too much credit for 
putting out the fire.
    You were talking earlier about, you know, some of the 
tactics of diplomacy and I think language is a very big part of 
that and the language that you use.
    Our President is not a master of the English language, much 
less any other one, and he doesn't stick to the script or read 
the teleprompter or take notes or believe in preparing.
    One of the uses of language I thought that might hinder 
this diplomatic effort is when he used the same language as 
North Korea and China used about the joint military exercises 
and called them provocative. That's what they have been saying 
they are.
    We have had other reasons for why those exercises took 
place but now just kind of on the spur of the moment he 
canceled them because they are provocative.
    I wonder if, moving forward in these diplomatic relations, 
we aren't making a mistake using the same language that our 
adversaries use as opposed to making our own case.
    Mr. Denmark, would you comment on that?
    Mr. Denmark. As I said earlier, ma'am, my sense is that 
these exercises are not provocative. They're defensive. They're 
stabilizing. They're legal, which is why I've always opposed 
the so-called freeze for freeze proposal that the Chinese made, 
and I am trying to equate some degree of equality between these 
two.
    But I think, if you take a step back, referring to these 
exercises as provocative really has broader implications than 
just on the Korean Peninsula. It suggests that these exercises 
are done to provoke not just North Korea but potentially the 
exercises that we have all around the world can now be pointed 
to by our adversaries as provocative.
    And so I think it has global implications in that way. But 
at the same time, my sense is that it raises the bar for if the 
President decides he wants to reinstate these exercises, wants 
to do any of these major exercises again in Korea, then it 
allows North Korea, it allows China to say, you said that these 
are provocative--you're only doing these to provoke us--it's 
not about readiness--it's not about deterrence--you said it's 
about provocation and this is exactly what you're trying to do.
    So I think by using that language, I agree that languages 
is absolutely important in diplomacy. My concern is that by 
using this language it helps feed into the arguments that China 
and North Korea have been making for a long time.
    Ms. Titus. I agree.
    You know, we've heard a lot about China and North Korea and 
Japan. There are other players in the area that are going to be 
affected by this that I think we need to take into account, 
too. You saw Mongolia wanted to host the summit, Singapore, you 
know, India. We need to look at other allies there as we move 
forward on this.
    Also, I would ask you, I am inclined to think that North 
Korea is not going to give up their nuclear weapons because 
that's what got them to the table. That's what got the U.S. 
there, and now they want to play on that stage.
    At what point in these negotiations, going forward, do we 
shift our focus from denuclearization to nuclear control or 
arms control?
    Mr. Klingner. Well, going along with the theme of words 
matter, North Korea defines denuclearization as global arms 
control, and as my colleagues have said it is as a self-
professed member of the nuclear club, North Korea will say, 
we'll go to zero when you go to zero.
    So we need to move away from defining or allowing North 
Korea to define the denuclearization, which is a U.N. 
requirement, in North Korean terms of arms control.
    So we need to keep focusing on what is required under 
numerous U.N. resolutions.
    Mr. Green. I would not bet a lot of money that this is 
going to lead to CVID. If it goes well, then maybe in a year or 
2 this committee will be debating the deal we have, and the 
deal we have is probably going to be if it's--best case 
scenario, in my view, North Korea freezes the Yongbyon 
plutonium facility or North Korea agrees to turn over certain 
facilities.
    It's a piece of the program, and then the debate will be 
how much do we lift sanctions--do we normalize relations--do we 
give them economic aid.
    And people can have a reasonable debate about that if we 
are lucky enough to get that far. My own bias would be reward 
them incrementally with humanitarian aid and other things but 
do not normalize or do other things that undermine the 
credibility of our commitment to allies.
    WE should be always remembering, as I said, that there are 
two chess games going on. One is with North Korea but the other 
one is with China, and our critical advantage in both, but 
especially the one with China, is our alliances.
    So let's not jeopardize our alliances for a partial deal. 
Let's pay something if we have to, but make sure that our 
alliances and our military readiness and deterrence are intact 
and, in fact, are getting stronger.
    Mr. Denmark. I believe that the United States should not 
drop its commitment to denuclearization. That said, I do think 
that positive progress is positive progress, and if we are able 
to make a partial deal that improves stability, that reduces 
the risk of war, that would be work to some degree of 
concessions, although I agree with Dr. Green that it is not 
worth giving everything for a partial deal.
    My sense, as I've said before, is that North Korea thinks 
they're in the mode of arms control negotiations, not 
denuclearization negotiations.
    And my fear for accepting a partial goal would that be the 
North Koreans would say okay, we got what we wanted--we are 
going to stop here.
    So I think it's always important to maintain--keep things 
back that they need--that they want in order to continue to 
have pressure to move forward on negotiations. But, again, 
positive progress is positive progress.
    Ms. Titus. Thank you.
    Thank you, Mr. Chairman.
    Mr. Yoho. Next, if you guys can tolerate it, we'll go back. 
Not that it's bad, but a second round of questions and I am 
going to let the ranking member start because he's got to get 
to another meeting.
    Mr. Sherman. First, as to--and I will pick up on the 
gentlelady from Hawaii's point--from a North Korean 
perspective, for them to settle for an agreement that is just 
with the executive branch would show that they're not paying 
attention.
    Gaddafi gave up his incipient nuclear program in return for 
an agreement with the executive branch. We all know that Kim 
Jong-un does not want to follow the Libya model. And Iran 
reached an agreement with only the executive branch and then 
the next head of the executive branch abrogated it.
    That may not be as important to Iran because they want a 
relationship with Europe more than they want a relationship 
with the United States. But in North Korea's circumstance, it 
would deprive them of very much of what they're negotiating 
for.
    I would also point out that if we release half the 
sanctions and we get half of what we need in terms of arms 
limitations rollbacks, that's a much worse deal for us because 
if you give up half the sanctions that's like you did have your 
foot on his neck and now you lift it most of the way.
    Well, that's bad for his people, because they won't enjoy 
prosperity. But it gives him enough economic clout to survive 
and to make sure that the finest in European luxuries are 
bestowed upon the top 3,000 or 4,000 families in the countries.
    So he doesn't need all these sanctions released. He only 
needs half of them released to assure everything he cares 
about.
    I want to ask--and I don't know which of you is in addition 
to being a foreign policy expert a strategic arms expert--but 
let's talk first about testing--what do they need to test.
    Have they reached the point where they've tested a 
thermonuclear hydrogen bomb or do they need to do more testing 
to feel that they are capable of creating that?
    Who has an answer? Mr. Denmark.
    Mr. Denmark. So I can give my sense. I think Bruce has some 
thoughts as well.
    We've seen them conduct tests. We don't get perfect sense 
of what it is. What we saw is a large device.
    Mr. Sherman. Right.
    Mr. Denmark. When it comes to testing I think the key 
thought is that we should not apply our standards of testing to 
North Korea. We have very high standards of testing for the 
reliability of our missiles, of everything.
    For North Korea, they just need to have the plausible 
capability. They don't need to test it----
    Mr. Sherman. So have they reached that plausible capability 
with regard to thermonuclear weapons, even if they agree not to 
test nuclear weapons in the future?
    Mr. Denmark. My judgment is that they're probably confident 
enough in order to be able to do it.
    Mr. Sherman. Does any--do either of our other panellists 
disagree?
    Mr. Green. I agree the one technical hurdle they appear not 
to have crossed is the ability for their weapon to reenter the 
atmosphere without burning up.
    Mr. Sherman. Yes. That's the delivery system.
    Mr. Green. But I think they----
    Mr. Sherman. Now, on delivery systems, keep in mind they 
can have a submarine in a small boat deliver one--not to 
Chicago but to Los Angeles or Honolulu. I guess Las Vegas is 
safe from that.
    Mr. Green. So they've achieved an acceptable level of ICBM 
capability.
    Mr. Sherman. So they clearly have proven missile capacity 
with regard to Tokyo and Seoul but they'd need a reentry 
vehicle to hit an inland city in the United States and they 
haven't proven that.
    Could they--if they were allowed to have a peaceful space 
program, would that give them all of the excuse necessary to do 
the testing to develop intercontinental ballistic missiles and 
reentry systems?
    Mr. Klingner. Yes. In agreement. They have tested a 
thermonuclear device, that the size of the seismic event was 
such that it could only have been through a thermonuclear.
    Most assessments are that they have--the missile delivery 
systems for nuclear weapons against South Korea and Japan. They 
have demonstrated the ICBM that can reach all the way down to 
Florida and beyond.
    The question is since they haven't demonstrated but that 
doesn't mean they don't have a reentry vehicle that would----
    Mr. Sherman. And they haven't tested to be sure that they 
have the reentry vehicle, but you can smuggle a nuclear weapon.
    Now, they're producing a certain number of new nuclear 
weapons, atomic and thermonuclear, every year.
    At what point will they feel they have the minimum they 
need to defend themselves and will they feel free to sell a 
nuclear weapon to anybody who's got a billion or two?
    Mr. Green. Dr. Green.
    Mr. Green. In March 2003, I was in negotiations in Beijing 
with the North Koreans where they told us that if we didn't end 
our hostile policy and give them what they wanted, they would 
transfer their nuclear capability.
    And then you will recall----
    Mr. Sherman. Well, they did transfer the capability to 
Syria or Syria/Iran that Israel destroyed in 2007.
    Mr. Green. That's right. They followed up on that threat.
    Mr. Sherman. And they could go forward and--when will they 
have enough weapons so that they feel that they can transfer 
fissile material?
    Mr. Green. They have enough weapons probably so that they 
can afford to transfer weapons or fissile material without 
significantly reducing their own military capability.
    The question is will they be deterred. I think the answer 
is yes. It's an excellent question because I think the North 
Koreans will put more pressure on us by threatening transfer, 
and we need to have very clear red lines and interdiction 
capabilities, which is one more reason why sanctions have to be 
vigorously enforced.
    Mr. Sherman. So far the Chinese have not agreed that they 
would prohibit nonstop flights between Tehran and Pyongyang. If 
those flights stopped in Beijing for fuel, then they would only 
carry the materials that China agreed to allow.
    But if they go nonstop they'll have whatever they have on 
them. I believe I've gone into overtime. I will yield back.
    Mr. Yoho. Thank you. I appreciate the second round.
    Let me ask you, in your opinion how much cooperation do you 
feel China has earnestly afforded to this process as far as 
sanction compliance?
    Any thoughts?
    Mr. Klingner. I think it has been better than in the past 
but it's not as much as the U.S. would like. A lot of it, 
especially from the outside of government, it's hard to get 
information on how strictly they have implemented sanctions.
    I think, since the January 2016 nuclear test, China has 
allowed better U.N. resolutions than in the past. I think they 
have stepped up their sanctions enforcement, as they 
periodically did in the past.
    It seems that this sanctions enforcement is, I think, 
stronger and longer than previous ones. But we also, at the 
same time, get conflicting reports about economic activity 
going on near the North Korean border as we even get reports 
about economic activity being restricted. So I----
    Mr. Yoho. Does anybody else have a different opinion?
    Mr. Green. Just a bit more detail. I understand from 
international relief organizations that when they try to 
transfer medicines or other things across the Chinese-North 
Korean border they're being stopped if there's any metal of any 
kind.
    So the Chinese were implementing pretty strictly up until 
recently. But since the summit was announced, we have Japanese 
photographs of Chinese ships helping transfer oil and so on and 
so forth, and the pattern for China has been they will put 
economic pressure on North Korea to get North Korea to the 
table, and as soon as there's a process the Chinese back way 
off and we can see that coming with a Xi-Kim dialogue going on 
right now. That's what we have to watch out for.
    Mr. Yoho. Well, and that was one of my questions I wanted 
to ask you. Do you have any factual information that China 
relaxed the sanctions after the Kim-Xi meetings?
    Mr. Denmark, you were going to say something too?
    Mr. Denmark. There's indications that they have dialled it 
back. I would add to what Dr. Green said, that North Korea--
excuse me, China does reduce economic sanctions enforcement 
after a meeting.
    They also put pressure on North Korea when they feel it 
helps keep the United States on the diplomatic path. So I 
actually think the Trump administration deserves a great deal 
of credit for getting the Chinese to enforce sanctions more 
than they had done before.
    That said, China--my sense is that China is already 
starting to soften its enforcement. My expectation is that 
they'll continue to soften and my concern, of course, is that 
the era of maximum pressure is over and we are in different 
period now than we were before.
    Mr. Yoho. Yes, and I have nightmares of snap back with the 
JCPOA--immediate snap back, which we knew was never going to 
happen.
    But I think this will be different. The thing that--I guess 
I am concerned about is North Korean vessels--since the summit 
we are seeing North Korean vessels transport coal and other 
minerals have been spotted at Chinese harbors.
    Chinese officials have stated that China will continue 
enforcing sanctions but have also suggested lifting U.N. 
sanctions on North Korea following the summit.
    I think this is a huge mistake. This is something that we 
are going to express our concerns here from this committee and 
the full committee.
    This is something that has brought us to the table to start 
the negotiations and we cannot back off and I think the 
President and Secretary Pompeo have articulated that very well 
and we want to make sure those tools stay in the arsenal as we 
talked about before this hearing.
    There is the saying--it's Korean--that says a job begun is 
a job half done. The summit happened. We can't go further if we 
didn't start.
    So let's just hope we have wise leaders, that we have the 
backbone, I think, or the political willingness to hold people 
accountable, because this is a historic moment--that if we can 
bring peace to that peninsula, finally, after the end of the 
Korean conflict, it'll be a historic moment that the world will 
be better off for that.
    And so let's just hope with the recommendations that you 
all have afforded us and we appreciate that, that we move in 
that direction.
    With that, this hearing is concluded, and I appreciate your 
patience and everybody in the audience being here.
    Thank you.
    [Whereupon, at 3:39 p.m., the committee was adjourned.]

  
                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
